                                                                     \


                                       NATIONAL SCIENCE FOUNDATION                             Page 1 of 2
                                            4201 WILSON BOULEVARD
                                           ARLINGTON, VIRGINIA 22230




          OFFICE OF
     INSPECTOR GENERAL




     MEMORANDUM

     Date: 3 1 March 2000

     To:     File I98080018

     From:                      special Agent

     RE:     Closeout



            It was discovered during a proactive review of travel expenditures that ~ r . -
t-                 the Universit                                  ad overcharged his NSF
     grants2 for expenditures r e 5 to his travel. We initially calculated that professor
     overcharged his grants a total of $8,146.

     Investipation

                              vercharged his grants in several different ways. ~ i r s t l
                                 from his travel vouchers travel subsidies from outside sources.
                              laimed per diem                   for days during an extended trip.
                                                                          how these overcharges
     occurred. It became clear in discussions wit            at confusing travel policies at the
     university related to foreign                                            partially at fault.

             As a result of information exchanged between OIG, a n -
     during the investigation, the professor voluntarily returned $1,530 to his NSF grant
                                                                                    - to
     compensate for his overcharges. Given the confusing nature of the remaining charges,
     we believe that the return was adequate.

             In addition to positive actions taken bfi-txamined                             its travel
     policies and procedures in order to                          to prevent future occurrences of
     travelers overcharging their grants.                          its travel policy to require that
     travelers identify and then deduct                              subsidies for travel from
requested travel reimbursement. In a d d i t i o n a s clarified its travel expenditure
manual to ensure that travelers understandjhe proper procedures for travel
reimbursement related to foreign travel.

Conclusions

       Due to the voluntary steps b    o      t     h   d a v e taken to address the
overcharges to the NSF grant, no further action is recommended. This case is closed.
